SIGAR                                   Special Inspector General for
                                         Afghanistan Reconstruction




                                                    SIGAR Financial Audit 13-2




           Audit of Costs Incurred by Cardno Emerging Markets
           Group, LTD. in Support of USAID’s Afghanistan State-
           Owned Enterprises Privatization, Excess Land
           Privatization, and Land Titling Project




                                                             JUNE
                                                            2013

SIGAR Financial Audit 13-2
June 6, 2013

 
Dr. Rajiv Shah  
Administrator  
U.S. Agency for International Development
Dr. S. Ken Yamashita
Mission Director for Afghanistan
U.S. Agency for International Development


This letter transmits the results of our audit of costs incurred by Cardno Emerging Markets Group, LTD. (EMG)
under a contract in support of USAID’s Afghanistan State-Owned Enterprises Privatization, Excess Land
Privatization, and Land Titling Project for the period September 15, 2004, through October 14, 2009.1 The
audit was performed by Regis & Associates with SIGAR oversight. It covered $55,589,542 in expenditures.
The purpose of the USAID contract was to assist the Afghan government with securing property registration,
simplifying land titling procedures, and clarifying the legal framework supporting property rights; and in
reforming, restructuring, and rationalizing state-owned enterprises.
The specific objectives of the audit were to
        render an opinion on the fair presentation of EMG’s Fund Accountability Statement;2
        determine and report on whether EMG has taken corrective action on recommendations from prior
         audits or assessments.
        identify and report on significant deficiencies, including any material weaknesses, in EMG’s internal
         financial controls; and
        identify and report on instances of material noncompliance with terms of the award and applicable
         laws and regulations.
In contracting with an independent audit firm and drawing from the results of their audit, SIGAR is required by
auditing standards to provide oversight of the audit work performed. Accordingly, SIGAR reviewed Regis &
Associates’ audit results and their supporting audit documentation and found them to be in accordance with
generally accepted government auditing standards.
Regis & Associates found that the Fund Accountability Statement presented fairly, in all material respects,
revenues received and costs incurred under the contract and identified no recommendations from prior audits
or assessments for follow-up or corrective action. Nevertheless, Regis reported two internal control deficiencies
and two instances of noncompliance, which prompted the auditors to question a total of $93,423 in costs. The
$93,423 in questioned costs included $19,501 in ineligible costs3 and $73,922 in unsupported costs.4 See
table 1 below.



1 USAID contract no. AFP-I-00-03-00029-00.
2 The Fund Accountability Statement is a special purpose financial statement that includes all revenues received, costs
incurred, and any remaining balance for a given award during a given period.
3 Ineligible costs are costs that the auditor has determined to be unallowable. These costs are recommended for exclusion

from the Fund Accountability Statement and review by USAID to make a final determination regarding allowability.
Table 1 - Summary of Questioned Costs
                                                  Questioned Costs
                  Category                                                          Ineligible                Unsupported
                                                        Total

 Other direct costs5                                              $73,922                                                $73,922

 Third country national labor in excess of
                                                                  $19,501                    $19,501
 budget6

 Totals                                                           $93,423                    $19,501                     $73,922

Given the results of the audit, SIGAR recommends that the Mission Director of USAID/Afghanistan:
    1. Determine the allowability of and recover, as appropriate, $93,423 in questioned costs ($19,501
       ineligible and $73,922 unsupported) identified in the report.
    2. Advise the Cardno Emerging Markets Group, LTD. to address the two internal control findings
       identified in the report prior to applying for additional awards with USAID.
    3. Advise the Cardno Emerging Markets Group, LTD. to address the two compliance findings identified in
       the report prior to applying for additional awards with USAID.
We will be following up with your agency to obtain information on the corrective actions taken in response to
our recommendations.




John F. Sopko
Special Inspector General
 for Afghanistan Reconstruction




4 Unsupported costs are those costs for which adequate or sufficient documentation necessary for the auditor to determine

the propriety of costs was not made available.
5 The unsupported other direct costs included office salaries, communication costs, office supplies, furniture and fixtures,

office equipment, building maintenance, and consulting fees.
6 The ineligible third country national labor costs represent labor costs for individuals from other countries (other than U.S.

citizens and Afghan nationals) in excess of the approved budget for the line item, without written approval from USAID.




                                                              2
       SPECIAL INSPECTOR GENERAL
    FOR AFGHANISTAN RECONSTRUCTION




                REPORT ON

  FINANCIAL AUDIT OF COSTS INCURRED BY
  CARDNO EMERGING MARKETS GROUP, LTD.
                 UNDER
   CONTRACT NUMBER AFP-I-00-03-00029-00

              FOR THE PERIOD
SEPTEMBER 15, 2004, THROUGH OCTOBER 14, 2009




                                   MANAGEMENT CONSULTANTS &
                                  CERTIFIED PUBLIC ACCOUNTANTS
                                                     Table of Contents

                                                                                                                           Page

Executive Summary............................................................................................................. i

Independent Auditors’ Report on the Fund Accountability Statement................................1

Fund Accountability Statement............................................................................................2

Notes to the Fund Accountability Statement .......................................................................3

Independent Auditors’ Report on Internal Control..............................................................5

Independent Auditors’ Report on Compliance ....................................................................7

Summary of Findings and Recommendations .....................................................................8

Appendices:

Appendix A – EMG’s Response to the Draft Report ........................................................10
                                EXECUTIVE SUMMARY

Summary of Results

The Special Inspector General for Afghanistan Reconstruction (SIGAR), contracted with
Regis & Associates, PC to perform a financial audit of costs incurred by Cardno Emerging
Markets Group, Ltd., (EMG) under Contract Number AFP-I-00-03-00029-00, between EMG
and United States Agency for International Development (USAID) for the period September
15, 2004, through October 14, 2009. As a result of applying audit procedures in accordance
with Government Auditing Standards, we questioned costs totaling $93,423, as shown in the
Fund Accountability Statement on page 2 of this report, and in the Summary of Findings and
Recommendations section on page 8 of this report. A questioned cost is an alleged violation
of a provision of law, regulation, contract, grant, cooperative agreement, or other agreement
or document governing the expenditure of Federal funds; or a finding that, at the time of
testing, such cost is not supported by adequate documentation.

Costs Claimed and Questioned Costs: EMG claimed total costs of $55,589,542 during the
period covered by the financial audit. As a result of testing a judgmentally selected sample
of transactions, we questioned costs as shown below.

                           Questioned Costs Type          Amount
                        Unsupported                       $ 73,922
                        Ineligible                        $ 19,501
                        Total                             $ 93,423

Details of the questioned costs are discussed in Findings 1 and 2 in the Summary of Findings
and Recommendations section on page 8 of this report.

Internal Control and Compliance: The detailed results from applying our audit procedures
showed instances of non-compliance with contract provisions, regulations, or USAID
specific requirements. The areas of non-compliance identified are presented in the Summary
of Findings and Recommendations section on page 8 of this report, and in the Independent
Auditors’ reports on Internal Control and Compliance. The areas of non-compliance are
presented below:

      Adequate records were not retained to support claimed costs.
      Budget line item was exceeded without approval from funding agency.

Corrective Action on Prior External Audit Report Recommendations or Other External
Assessment Recommendations: Our review of prior external audit reports or other external
assessments did not disclose any recommendations. Hence, no follow-up or corrective
actions are required to be taken by auditee.

Audit Objectives, Scope and Methodology: The objectives of the audit are to perform a
financial audit of the funds provided under the contract in accordance with Government
Auditing Standards and accordingly includes such tests of the accounting records as deemed


                                              i
necessary under the circumstances, which includes procedures to ascertain the allowability,
allocability, and reasonableness of financial transactions claimed under funding provided by
the USAID. Other objectives include evaluating and obtaining a sufficient understanding of
the audited entity's internal control related to the contract, assess control risk, and identify
and report on significant deficiencies including material internal control weaknesses; testing
to determine whether the audited entity complied, in all material respects, with the contract
requirements and applicable laws and regulations; and determining and reporting on whether
the audited entity has taken adequate corrective action on prior external audit report
recommendations or other external assessment recommendations. Our audit covered the
period September 15, 2004 through October 14, 2009.

We conducted this financial audit in accordance with Generally Accepted Government
Auditing Standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions, based on our audit objectives. As part of that process, we: 1) performed audit
planning and risk assessment to gain an understanding of the nature of EMG’s contract
awarded by USAID; EMG’s accounting system used for recording costs under the contract;
and the conditions under which EMG manages its USAID contract, by reviewing such items
as the contract, modifications, applicable regulations, accounting policies and procedures
manuals, reports by others, and internal controls over contract financial management and
administration; 2) evaluated and obtained a sufficient understanding of the audited entity's
internal control related to the award; assess control risk; and identify and report on significant
deficiencies including material internal control weaknesses; 3) determined whether the
audited entity complied, in all material respects, with the award requirements and applicable
laws and regulations; and identify and report on instances of material noncompliance with
terms of the award and applicable laws and regulations, including potential fraud or abuse
that may have occurred; 4) determined and reported on whether the audited entity has taken
adequate corrective action on prior external audit report recommendations or other external
assessment recommendations; and 5) expressed an opinion on whether the Fund
Accountability Statement for the award presents fairly, in all material respects, revenues
received, costs incurred, items directly procured by the U.S. Government and fund balance
for the period audited in conformity with the terms of the award and generally accepted
accounting principles or other comprehensive basis of accounting.

Based on our initial assessment of risk related to controls and adequacy of contract financial
reporting, we judgmentally selected 20 of the 67 SF 1034, Public Voucher for Purchases and
Services Other than Personal, submitted to the government by EMG, which represented
35.4% of total claimed costs; and tested the allowability, allocability and reasonableness of
costs claimed by EMG on the contract. We performed our audit procedures during the period
December 19, 2012, through March 14, 2013.

Background

Cardno Emerging Markets Group, Ltd. (EMG) provides professional services associated with
the planning, design, implementation, evaluation, and monitoring of development programs
across a range of physical, economic, and social infrastructure sectors.



                                                ii
EMG entered into a cost plus fixed fee contract number AFP-I-00-03-00029-00, with United
States Agency for International Development (USAID) for the period September 15, 2004
through October 14, 2009; and received payments of approximately, $55.6 million, over a 62
month period. The purpose of this contract was to assist the Afghanistan government with
securing property registration, simplifying land titling procedures, and clarifying the legal
framework supporting property rights; and in reforming, restructuring, and rationalizing
State-Owned Enterprises in the creation of an enabling environment for private sector
growth.


Exit Conference

We held an exit conference on April 19, 2013, with personnel from EMG, USAID and
SIGAR to discuss the results of the audit. The draft audit report findings and
recommendations were discussed, and EMG concurred with the findings and
recommendations. Below are our summarization and evaluation of EMG’s written response
to the draft audit report. The complete text of EMG’s response is attached to this report as
Appendix- A.

Summary Auditee’s Comment to Draft Report

In its written response, EMG’s management concurred with the findings and
recommendations. However, EMG’s management requested that USAID waive the
unsupported amounts based on alternate supporting documentation provided during the audit
fieldwork phase. EMG’s management also stated that it will request approval from USAID
on the exceeded budget line item.




                                             iii
      MANAGEMENT CONSULTANTS &
     CERTIFIED PUBLIC ACCOUNTANTS


                        INDEPENDENT AUDITORS’ REPORT ON
                       THE FUND ACCOUNTABILITY STATEMENT

To the Board of Directors
Cardno Emerging Markets Group, Ltd.
2107 Wilson Blvd, Suite 800
Arlington, VA 22201

We have audited the Fund Accountability Statement of Cardno Emerging Markets Group, Ltd.
for contract number AFP-I-00-03-00029-00 for the period September 15, 2004 through October
14, 2009. The Fund Accountability Statement is the responsibility of Cardno Emerging Markets
Group, Ltd’s management. Our responsibility is to express an opinion on the Fund
Accountability Statement, based on our audit.

We conducted our audit of the Fund Accountability Statement, in accordance with Government
Auditing Standards issued by the Comptroller General of the United States. Those standards
require that we plan and perform the audit to obtain reasonable assurance about whether the Fund
Accountability Statement is free of material misstatement. An audit includes examining, on a
test basis, evidence supporting the amounts and disclosures in the Fund Accountability
Statement. An audit also includes assessing the accounting principles used, and significant
estimates made by management, as well as evaluating the overall financial statement
presentation. We believe that our audit provides a reasonable basis for our opinion.

In our opinion, the Fund Accountability Statement referred to above presents fairly, in all
material respects, program revenues, costs incurred and reimbursed, and items and technical
assistance directly procured by United States Agency for International Development, for the
period September 15, 2004 through October 14, 2009, in accordance with the terms of the
agreement and in conformity with accounting principles generally accepted in the United States
of America.

In accordance with Government Auditing Standards, we have also issued our reports, dated
March 14, 2013, on our consideration of Cardno Emerging Markets Group, Ltd’s internal control
over financial reporting, and our tests of its compliance with certain provisions of laws and
regulations. Those reports are an integral part of an audit performed in accordance with
Government Auditing Standards, and should be read in conjunction with this Independent
Auditor’s Report in considering the results of our audit.

This report is intended for the information of Cardno Emerging Markets Group, Ltd., United
States Agency for International Development, and Special Inspector General for Afghanistan
Reconstruction. Financial information in this report may be privileged. The restrictions of 18
USC 1905 should be considered before any information is released to the public.



Regis & Associates, PC
Washington, DC

March 14, 2013

     1400 Eye Street, NW, Suite 425, Washington, D.C. 20005 Tel 202-296-7101 Fax 202-296-7284
                          CARDNO EMERGING MARKETS GROUP, LTD.
                             FUND ACCOUNTABILITY STATEMENT
                        SEPTEMBER 15, 2004, THROUGH OCTOBER 14, 2009

                                                                        Questioned Costs
Revenues                                Budget          Actual      Unsupported    Ineligible     Notes
Total Award Contract Number AFP-      $ 56,328,775   $ 55,589,542
I-00-03-00029-00
Total Revenue                         $ 56,328,775   $ 55,589,542

Costs Incurred
Workdays Ordered                      $ 22,453,405   $ 22,374,295       $      0       $      0
Third Country Nationals Labor         $ 882,676      $ 902,177          $      0       $ 19,501     3
Cooperating Country Nationals Labor   $ 8,806,253    $ 8,623,428        $      0       $      0
Other Direct Costs                    $ 24,186,441   $ 23,689,642       $ 73,922       $      0     4
Total Cost Incurred                   $ 56,328,775   $ 55,589,542       $ 73,922       $ 19,501
Outstanding Fund Balance (Total       $          0   $          0
Revenue less Total Cost Incurred)




              The accompanying notes are an integral part of this fund accountability statement




                                                      2
             NOTES TO THE FUND ACCOUNTABILITY STATEMENT

NOTE 1:       ORGANIZATION AND PURPOSE

Cardno Emerging Markets Group, Ltd. (EMG) provides professional services associated with
the planning, design, implementation, evaluation, and monitoring of development programs
across a range of physical, economic, and social infrastructure sectors.

EMG entered into a cost plus fixed fee contract number AFP-I-00-03-00029-00, with United
States Agency for International Development (USAID), and received payments of
approximately, $55.6 million, over a 62 month period. The purpose of this contract was to
assist the Afghanistan government with securing property registration, simplifying land
titling procedures, and clarifying the legal framework supporting property rights; and in
reforming, restructuring, and rationalizing State-Owned Enterprises in the creation of an
enabling environment for private sector growth.


NOTE 2:       SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES

Basis of Presentation
The accompanying financial statement has been prepared in accordance with accounting
principles, generally accepted in the United States of America, as prescribed by the American
Institute of Certified Public Accountants.

Reporting Entity
The accompanying Fund Accountability Statement reports the Contract revenues, costs
incurred, and fund balance for the period September 15, 2004 through October 14, 2009, in
accordance with the terms of the Contract, and in conformity with accounting principles
generally accepted in the United States of America.

Measurement Focus, Basis of Accounting and Financial Statement Presentation
The Fund Accountability Statement of the Contract is reported, using the economic resources
measurement focus and the accrual basis of accounting. Revenues are recorded when earned,
and expenses are recognized when costs are incurred.


NOTE 3:       INELIGLE COST - TCN LABOR VARIANCE

Third Country National (TCN) Labor, totaling approximately, $19,501 was claimed in excess
of the approved budget for that line item, without any written approval from United States
Agency for International Development. See Finding 2, for detail.




                                              3
NOTE 4:       UNSUPPORTED COSTS

Costs claimed as “other direct costs” totaling, approximately, $68,446 were unsupported.
The costs were for:

      Communications, $18,447;
      Office Salaries, $17,931;
      Office Supplies, $16,818;
      Furniture & Fixtures, $7,000;
      Office Equipment, $4,156;
      Building Maintenance, $2,094; and
      Consultant Fee, $2,000.

   As a result of the unsupported costs, G&A was over-applied by $5,476, which resulted in
   total unsupported costs of $73,922. See Finding 1, for detail.




                                            4
      MANAGEMENT CONSULTANTS &
     CERTIFIED PUBLIC ACCOUNTANTS




         INDEPENDENT AUDITORS’ REPORT ON INTERNAL CONTROL

To the Board of Directors
Cardno Emerging Markets Group, Ltd.
2107 Wilson Blvd, Suite 800
Arlington, VA 22201

We have audited the Fund Accountability Statement of Cardno Emerging Markets Group,
Ltd., for contract number AFP-I-00-03-00029-00, for the period September 15, 2004, through
October 14, 2009, and have issued our report thereon, dated March 14, 2013.

We conducted our audit in accordance with Government Auditing Standards, issued by the
Comptroller General of the United States. Those standards require that we plan and perform
the audit to obtain reasonable assurance about whether the Fund Accountability Statement is
free of material misstatement.

The management of Cardno Emerging Markets Group, Ltd., is responsible for establishing
and maintaining internal control. In fulfilling this responsibility, estimates and judgments by
management are required to assess the expected benefits and related costs of internal control
policies and procedures. The objectives of internal control are to provide management with
reasonable, but not absolute, assurance that the assets are safeguarded against loss from
unauthorized use or disposition; transactions are executed in accordance with management's
authorization and in accordance with the terms of the agreements; and transactions are
recorded properly to permit the preparation of the Fund Accountability Statement in
conformity with accounting principles generally accepted in the United States of America.
Because of inherent limitations in internal control, errors or fraud may nevertheless occur and
not be detected. Also, projection of any evaluation of the structure to future periods is
subject to the risk that procedures may become inadequate because of changes in conditions
or that the effectiveness of the design and operation of policies and procedures may
deteriorate.

In planning and performing our audit of the Fund Accountability Statement of Cardno
Emerging Markets Group, Ltd., for contract number AFP-I-00-03-00029-00, for the period
September 15, 2004 through October 14, 2009, we obtained an understanding of internal
control. With respect to internal control, we obtained an understanding of the design of
relevant policies and procedures, and whether they have been placed in operation, and we
assessed control risk in order to determine our auditing procedures for the purpose of
expressing our opinion on the Fund Accountability Statement, and not to provide an opinion
on internal control. Accordingly, we do not express such an opinion.

Our consideration of internal control would not necessarily disclose all matters in internal
control that might be a deficiency under standards established by the American Institute of
Certified Public Accountants (AICPA).



     1400 Eye Street, NW, Suite 425, Washington, D.C. 20005 Tel 202-296-7101 Fax 202-296-7284
A deficiency in internal control exists when the design or operation of a control does not
allow management or employees, in the normal course of performing their assigned
functions, to prevent, or detect and correct misstatements on a timely basis. A material
weakness is a deficiency, or combination of deficiencies, in internal control, such that there is
a reasonable possibility that a material misstatement of the entity's financial statements will
not be prevented, or detected and corrected on a timely basis. We noted two instances
involving internal control and its operation that we consider to be deficiencies, as defined
above. Those instances are detailed in Findings 1 and 2 in the Summary of Findings and
Recommendations section of this report.

This report is intended for the information of Cardno Emerging Markets Group, Ltd., United
States Agency for International Development, and Special Inspector General for Afghanistan
Reconstruction. Financial information in this report may be privileged. The restrictions of 18
USC 1905 should be considered before any information is released to the public.




Regis & Associates, PC
Washington, DC

March 14, 2013




                                               6
      MANAGEMENT CONSULTANTS &
     CERTIFIED PUBLIC ACCOUNTANTS




               INDEPENDENT AUDITORS’ REPORT ON COMPLIANCE

To the Board of Directors
Cardno Emerging Markets Group, Ltd.
2107 Wilson Blvd, Suite 800
Arlington, VA 22201

We have audited the Fund Accountability Statement of Cardno Emerging Markets Group,
Ltd., for contract number AFP-I-00-03-00029-00, for the period September 15, 2004, through
October 14, 2009, and have issued our report thereon, dated March 14, 2013.

We conducted our audit in accordance with Government Auditing Standards, issued by the
Comptroller General of the United States. Those standards require that we plan and perform
the audit to obtain reasonable assurance about whether the Fund Accountability Statement is
free of material misstatement resulting from violations of contract terms, and laws and
regulations that have a direct and material effect on the determination of the Fund
Accountability Statement amounts.

Compliance with contract terms, and laws and regulations applicable to Cardno Emerging
Markets Group, Ltd. is the responsibility of Cardno Emerging Markets Group, Ltd’s
management. As part of obtaining reasonable assurance about whether the Fund
Accountability Statement is free of material misstatement, we performed tests of Cardno
Emerging Markets Group, Ltd’s compliance with certain provisions of agreement terms, and
laws and regulations. However, our objective was not to provide an opinion on overall
compliance with such provisions. Accordingly, we do not express such an opinion.

The results of our tests disclosed two instances of noncompliance that are required to be
reported here, under Government Auditing Standards. Those instances are detailed in
Findings 1 and 2 in the Summary of Findings and Recommendations section of this report.

This report is intended for the information of Cardno Emerging Markets Group, Ltd., United
States Agency for International Development, and Special Inspector General for Afghanistan
Reconstruction. Financial information in this report may be privileged. The restrictions of 18
USC 1905 should be considered before any information is released to the public.




Regis & Associates, PC
Washington, DC

March 14, 2013




     1400 Eye Street, NW, Suite 425, Washington, D.C. 20005 Tel 202-296-7101 Fax 202-296-7284
               SUMMARY OF FINDINGS AND RECOMMENDATIONS


Finding 1: Adequate records were not retained to support claimed costs

Criteria: Federal Acquisition Regulation Subpart 4.7- Contractor Records Retention, Section
4.703, Policy, states that “…contractors shall make available records, which includes books,
documents, accounting procedures and practices, and other data, regardless of type and
regardless of whether such items are in written form, in the form of computer data, or in any
other form, and other supporting evidence to satisfy contract negotiation, administration, and
audit requirements of the contracting agencies and the Comptroller General for- (1) 3 years
after final payment or, for certain records…”

Condition: Costs claimed as “other direct costs” totaling, approximately, $68,446 were
unsupported. The costs were for:

      Communications, $18,447;
      Office Salaries, $17,931;
      Office Supplies, $16,818;
      Furniture & Fixtures, $7,000;
      Office Equipment, $4,156;
      Building Maintenance, $2,094; and
      Consultant Fee, $2,000.

As a result of the unsupported costs, G&A was over-applied by $5,476, which resulted in
total unsupported costs of $73,922.

Cause: EMG’s management stated that their inability to provide the records supporting the
$68,446 claimed was due to filing errors that occurred during relocation of records from their
offices and project site to their off-site storage facility.

Effect: As a result of the condition noted above, funds claimed and collected, totaling
approximately, $73,922 were unsupported. Also, there is a risk that costs claimed may be
unallowable.

Recommendation 1: We recommend that EMG refund the claimed amount, $73,922, if
adequate supporting documentation cannot be provided timely.

EMG’s Response
In its written response, EMG’s management concurred with the finding and recommendation,
but requested that USAID waive the unsupported amounts based on alternate supporting
documentation provided during the audit fieldwork phase.




                                              8
Finding 2: Budget line item was exceeded without approval from funding agency

Criteria: Federal Acquisition Regulation (FAR) Subpart 31.2-Contracts with Commercial
Organizations, Section 201-2, Determining Allowability, states that “…(a) A cost is
allowable only when the cost complies with all of the following requirements: (1)
Reasonableness. (2) Allocability. (3) Standards promulgated by the CAS Board, if
applicable, otherwise, generally accepted accounting principles and practices appropriate to
the circumstances. (4) Terms of the contract. (5) Any limitations set forth in this subpart.”

Condition: Third Country National Labor, totaling approximately, $19,501 was claimed in
excess of the approved budget for that line item, without any written approval from USAID.

Cause: EMG’s management stated that they were not aware of any provision in the contract
that requires such approval since total costs claimed did not exceed total contract amount;
and was also not aware of the FAR requirement.

Effect: Failure to follow contract terms undermines the controls and roles established in the
contract. Budget categories are such a control and are intended to limit and focus costs to the
government.

Recommendation 2: We recommend that EMG request permission to exceed the Third
Country National Labor budget from USAID.

EMG’s Response
In its written response, EMG’s management concurred with the finding and recommendation;
and stated that it will request approval from USAID on the exceeded budget line item.




                                              9
Appendix- A- EMG’s Response to the Draft Report




                      10
Appendix- A- EMG’s Response to the Draft Report




                      11
                               The mission of the Special Inspector General for Afghanistan
           SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                               reconstruction of Afghanistan by conducting independent and
                               objective audits, inspections, and investigations on the use of
                               taxpayer dollars and related funds. SIGAR works to provide accurate
                               and balanced information, evaluations, analysis, and
                               recommendations to help the U.S. Congress, U.S. agencies, and
                               other decision-makers to make informed oversight, policy, and
                               funding decisions to:
                                           improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                           improve management and accountability over funds
                                            administered by U.S. and Afghan agencies and their
                                            contractors;
                                           improve contracting and contract management
                                            processes;
                                           prevent fraud, waste, and abuse; and
                                           advance U.S. interests in reconstructing Afghanistan.


  Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
   Reports and Testimonies     site (www.sigar.mil). SIGAR posts all publically released reports,
                               testimonies, and correspondence on its Web site.




To Report Fraud, Waste, and    To help prevent fraud, waste, and abuse by reporting allegations of
                               fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
      Abuse in Afghanistan     hotline:
   Reconstruction Programs                 Web: www.sigar.mil/fraud
                                           Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                           Phone Afghanistan: +93 (0) 700-10-7300
                                           Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                           Phone International: +1-866-329-8893
                                           Phone DSN International: 312-664-0378
                                           U.S. fax: +1-703-601-4065




                               Public Affairs Officer
              Public Affairs
                                           Phone: 703-545-5974
                                           Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                           Mail: SIGAR Public Affairs
                                            2530 Crystal Drive
                                            Arlington, VA 22202
